NO. 19-333
IN THE

Supreme Court of the United States
________________________

ARLENE’S FLOWERS, INC., D/B/A ARLENE’S
FLOWERS AND GIFTS, AND BARRONELLE
STUTZMAN,
Petitioners,
v.
STATE OF WASHINGTON;
ROBERT INGERSOLL AND CURT FREED,
Respondents.
_________________
On Petition for Writ of Certiorari to the
Supreme Court of Washington
_________________
BRIEF OF CENTER FOR RELIGIOUS
EXPRESSION AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS
_________________
NATHAN W. KELLUM
Counsel of Record
CENTER FOR RELIGIOUS
EXPRESSION
699 Oakleaf Office Lane
Suite 107
Memphis, TN 38117
(901) 684-5485
nkellum@crelaw.org
Counsel for Amicus Curiae

i
TABLE OF CONTENTS
TABLE OF CONTENTS .............................................. i
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICUS CURIAE ............................ 1
INTRODUCTION
AND
SUMMARY
OF
ARGUMENT ............................................................... 1
ARGUMENT ............................................................... 4
I. Following Masterpiece Cakeshop, Conflict
in Authority Persists on Whether the First
Amendment Prevents Non-Discrimination
and Public Accommodation Laws from
Compelling Expressive Works ......................... 4
A. Courts in New Mexico, Oregon, as well as
Washington,
Reject
Free
Speech
Protections for Business Operations when
Non-Discrimination
or
Public
Accommodations Laws are Invoked.............. 6
B. The Eighth Circuit, Arizona, and
Kentucky (to Some Degree) Support Free
Speech
Protections
for
Business
Operations when Non-Discrimination or
Public
Accommodations
Laws
are
Invoked......................................................... 15
II. This Case Presents an Ideal Vehicle for
this Court to Resolve the Ongoing Conflict ... 25
CONCLUSION .......................................................... 27

ii
TABLE OF AUTHORITIES

Brush & Nib Studio, LC v. City of Phoenix,
418 P.3d 426 (Ariz. Ct. App. 2018)....................... 20
Brush & Nib Studio, LC,
No. CV-18-0176-PR, 2019 WL 4400328
(Ariz. Sept. 16, 2019) ...................................... 20, 21
Elane Photography, LLC v. Willock,
309 P.3d 53 (N.M. 2013) ................................ passim
Hurley v. Irish-Am. Gay, Lesbian & Bisexual
Grp. of Boston, 515 U.S. 557 (1995) .............. passim
Klein v. Oregon Bureau of Labor & Indus.,
139 S. Ct. 2713 (2019) .......................................... 11
Klein v. Oregon Bureau of Labor & Indus.,
410 P.3d 1051 (2017) ................................ 11, 12, 21
Lexington Fayette Urban Cty. Human Rights
Comm’n v. Hands on Originals, Inc.,
No. 2015-CA-000745-MR, 2017 WL 2211381
(Ky. Ct. App. May 12, 2017) ........................... 23, 24
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission, 138 S.Ct. 1719 (2018) .. passim
Miami Herald Publ’g Co. v. Tornillo,
418 U.S. 241 (1974) .................................... 8, 17, 21

iii
Obergefell v. Hodges,
135 S.Ct. 2584 (2015) ................................... 1, 2, 12
Pac. Gas & Elec. Co. v. Pub. Utilities Comm’n of
California, 475 U.S. 1 (1986) ........................... 9, 21
State v. Arlene's Flowers, Inc.,
441 P.3d 1203 (2019) ...................................... 14, 15
Telescope Media Grp. v. Lindsey,
271 F.Supp.3d 1090 (D. Minn. 2017) ................... 17
Telescope Media Grp. v. Lucero,
936 F.3d 740 (8th Cir. 2019) .................... 16, 17, 18
United States v. O'Brien,
391 U.S. 367 (1968) ........................................ 12, 17
W. Virginia State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) .......................................... 8, 11
Wooley v. Maynard,
430 U.S. 705 (1977) .......................................... 8, 11

1
INTEREST OF AMICUS CURIAE
Amicus curiae Center for Religious Expression
(“CRE”) is a non-profit legal organization dedicated
to protecting religious expression, a fundamental
right that encompasses the freedom not to speak as
well as the freedom to speak, in accordance with
sincerely-held beliefs. 1 Since forming in 2012, CRE
has represented individuals and entities in various
courts in different parts of the country to defend
these liberties. The amicus has a significant interest
in this case due its conviction that no creative
professional should be forced by the government to
create and articulate a message she does not wish to
convey.
INTRODUCTION AND
SUMMARY OF ARGUMENT
In Obergefell v. Hodges, this Court held samesex couples have a fundamental right to marry
“inherent in the concept of individual autonomy.” 2.
To allay fears about the ruling doing harm to
religious liberty, Justice Kennedy, on behalf of the
majority, stressed “that religions, and those who
adhere to religious doctrines, may continue to
In compliance with Supreme Court Rule 37.6, counsel for
amicus curiae represents that he authored this brief in its
entirety and neither the parties, nor their counsel, nor anyone
other than amicus and amicus counsel, made a monetary
contribution to fund the preparation or submission of this brief.
Also, pursuant to Supreme Court Rule 37.2, counsel for amicus
curiae represents that he received requisite timely consent
from counsel of record of all parties to file this brief.
2
135 S.Ct. 2584, 2599 (2015).
1

2
advocate with the upmost, sincere conviction that, by
divine precepts, same-sex marriage should not be
condoned.” 3 And, in recognizing some could oppose
same-sex marriage for other reasons as well, the
Court noted the inherent value of civil
“disagree[ment]” and continuing an “open and
searching debate” on this important social issue. 4
Notwithstanding this noble sentiment, the
Obergefell decision unwittingly pit the newlyarticulated sexual liberty against free speech and
free exercise of religion liberties. Proponents of
same-sex marriage presumed the right to marry
brings with it an attendant right to have others
contribute to the wedding ceremony. Shortly after
Obergefell, and even in anticipation of it, many
states and municipal authorities aggressively
applied
non-discrimination
and
public
accommodation laws to wedding vendors who sought
to avoid participation in same-sex wedding events,
effectively cutting short any “open and searching
debate” on the propriety of same-sex marriage,
demanding full and immediate agreement on the
matter.
Consequently, many creative professionals 5,
like Barronelle Stutzman, find themselves in the
Id. at 2607.
Id.
5 The term “creative professionals,” as used herein, refers to
those individuals who make a living through their expressive
creations. Whereas many occupations have some expressive
component to them, the occupations of “creative professionals”
are expressive in nature.
3
4

3
crosshairs of a political cause. Sincere individuals
who would rather not lend their creative talents to
an event they cannot condone as a matter of
conscience – choosing to turn down such jobs – are
facing criminal investigations, sanctions, fines, and
imprisonment. They are given a Hobson’s choice:
either forego their beliefs or their livelihood, because
they cannot have both.
The compelled expression in this context has
led to a substantial amount of litigation in the state
and federal court systems, with many cases going to
the highest appellate levels. This Court’s first
opportunity to address the question was last year in
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Commission, involving the forced speech of cake
artist Jack Phillips. 6 But the religious animus
exhibited by the state was so egregious and blatant,
this Court could hardly get past it, and did not rule
on the core free speech issue. 7
Without any binding precedent to follow,
lower courts have struggled to reconcile the
competing interests at stake. They have taken
divergent approaches to the issue, drawn opposite
conclusions, and have left no discernable path for a
consensus.
Amid this jurisprudential disarray, amicus
urges this Court to supply the requisite guidance.
Artistic expression, whether it involves the act of
crafting a wedding invitation, taking a photograph,
6
7

138 S.Ct. 1719 (2018).
Id. at 1723-24.

4
preparing an original cake, or designing a floral
arrangement,
is
constitutionally
protected
expression and should be treated that way. Such
expression should not be coerced just as it should not
be silenced. And though the same-sex wedding
context is currently the most pressing concern, it is
not so limited. All kinds of creative professionals
stand to suffer from undue compulsion unless and
until this Court weighs in on the matter.
Barronelle Stutzman’s petition presents this
Court with a perfect opportunity to uphold the
constitutional rights of creative professionals. We
respectfully ask this Court to take advantage.
ARGUMENT
I.

Following Masterpiece Cakeshop, Conflict
in Authority Persists on Whether the First
Amendment Prevents Non-Discrimination
and Public Accommodation Laws from
Compelling Expressive Works

In Masterpiece Cakeshop,
this Court
considered the plight of a cake artist Jack Phillips
who declined to create an original wedding cake for a
same-sex union and found himself sued by the
State. 8 Phillips claimed a constitutional right to
decline the request. 9
On the other hand, the
Colorado Civil Rights Commission and ACLU urged
the rights of the same-sex couple to have a wedding
cake made for them by a baker who regularly bakes
8
9

138 S.Ct. at 1724, 1726.
Id. at 1726.

5
cakes for a living. 10 The free speech issue was
whether a custom-designed cake qualified as
protected speech that could not be compelled by
government’s application of a public accommodations
law. 11
At the outset of the Opinion, the Court
highlighted the tension between free expression
rights and the potential threat of community-wide
stigma against LGBTQ+ persons should the
constitutional argument stretch too far. 12 The Court
also mentioned difficulty in determining the
circumstances in which the making of a product
becomes speech. 13 But in lieu of tackling these
issues, the Court set them aside for another day,
ultimately ruling in favor of Phillips on the free
exercise question, finding a lack of religious
neutrality. 14
In a concurrence, Justice Thomas, joined by
Justice Gorsuch, wrote separately to address the free
speech claim, considering the issue too critical to
ignore. 15 These two justices opined that the free
speech claim supplied an independent basis for
ruling in favor of Phillips. 16 They explained the
First Amendment considers activity intended and
reasonably understood as communicative as
Id. at 1725-26.
Id. at 1726, 1728.
12
Id. at 1727.
13
Id. at 1723.
14
Id. at 1723-24.
15
Id. at 1740 (Thomas, J., concurring).
16
Id. at 1748.
10
11

6
protected speech – even if a “particularized message”
is not discernable. 17 The justices also reminded that
this Court has never held speech can lose its
expressive import just because it involves
compliance with an accommodations law. 18 And,
they warned the issue would persist without final
say-so from the Court. 19
The concurrence’s concerns were warranted.
In the absence of a definitive ruling in Masterpiece
Cakeshop, the compelled speech issue has endured,
and festered, with a growing, steady stream of
conflicting and fractured opinions from state and
federal courts regarding whether, and to what
degree, the First Amendment can curb the
compulsion of creating expressive works under nondiscrimination and public accommodation laws.
Every filing invoking the issue only serves to deepen
the divide.
A. Courts in New Mexico, Oregon, as well as
Washington,
Reject
Free
Speech
Protections for Business Operations
when Non-Discrimination or Public
Accommodations Laws are Invoked
New Mexico: Elaine Huguenin
Elaine Huguenin is a professing Christian
who once ran a small photography business in New
Id. at 1742.
Id. at 1744-45.
19
Id. at 1748.
17
18

7
Mexico. 20 For Huguenin, photography was more
than aim and shoot; she liked to tell stories through
her craft. 21 But because of her faith, she could not,
in good conscience, take photographs telling the
story of same-sex unions. 22 She had no problem
photographing anyone falling under LGBTQ+
categories, and would gladly serve such customers
for other reasons, like a portrait photograph, for
instance. 23 She could not photograph events sending
a message promoting a same-sex civil union – for
anyone, including heterosexuals. 24
One day, Huguenin was contacted by Vanessa
Willock who asked Huguenin to photograph a samesex ceremony for her. 25 Huguenin declined, politely
informing that she could not photograph such events
due to her religious beliefs. 26 Dissatisfied with this
response, Willock filed a discrimination claim
against Huguenin, which worked its way to the New
Mexico Supreme Court. 27
New Mexico’s highest court held the refusal to
photograph a same-sex ceremony was invalid
So
discrimination against sexual orientation. 28
holding, the court discarded Huguenin’s free speech
Elane Photography, LLC v. Willock, 309 P.3d 53, 78 (N.M.
2013).
21
Id. at 63, 70.
22
Id. at 78.
23
Id. at 61.
24
Id.
25
Id. at 59.
26
Id. at 60.
27
Id.
28
Id. at 61-62.
20

8
rights, reasoning that because her photography was
for-hire, and part of business activity, it did not
classify as speech meriting First Amendment
protection. 29
The court reckoned that “[w]hile
photography may be expressive, the operation of a
photography business is not.” 30 A concurrence to the
decision added that the sacrifice of her conscience
was no more than “the price of citizenship.” 31
The court drew a number of deductions in
support of this holding. It concluded that general
compelled speech jurisprudence does not apply when
the law’s intent is to prevent discrimination in
business (as opposed to furthering the government’s
message), distinguishing W. Virginia State Bd. of
Educ. v. Barnette, 319 U.S. 624 (1943) and Wooley v.
Maynard, 430 U.S. 705 (1977) on this basis. 32
Turning to whether the law impermissibly compelled
Huguenin to speak a third party’s message, the court
also held the protections outlined in Hurley v. IrishAm. Gay, Lesbian & Bisexual Grp. of Boston, 515
U.S. 557 (1995), did not apply to for-profit entities. 33
The state court determined that protection from
compelled inclusion of another’s message only
applies when the business creates messages
independent of their speech-for-hire, and thus, this
Court’s rulings in Miami Herald Publ’g Co. v.
Tornillo, 418 U.S. 241 (1974) and Pac. Gas & Elec.
Co. v. Pub. Utilities Comm’n of California, 475 U.S. 1
Id. at 68.
Id.
31
Id. at 80 (Bosson, J., concurring).
32
Id. at 64-65.
33
Id. at 65-66.
29
30

9
(1986) did not factor in either. 34 Further, the court
questioned whether the messaging through
photographs could be attributed to the photographer,
Huguenin, given that her photography services were
available for-hire to the public. 35
Essentially, in New Mexico, it’s all about the
money. The doctrine against compelled speech does
not apply to a for-profit public accommodation –
regardless of the expressive nature of the product or
service. The nature of a business as a business
categorically exempts otherwise expressive products
or services from being considered speech entitled to
First Amendment protection. And, as a result,
creative professionals may be compelled to create art
promoting objectionable messages about sexuality or
presumably, anything else, by virtue of their offering
services to the public for-profit.
Oregon: Melissa Klein
Melissa Klein is also a Christian, whose
artistic talent for designing and decorating cakes led
her to open a bakery called “Sweet Cakes by
Melissa.” 36
Much like Jack Phillips in the
Masterpiece Cakeshop case, Klein’s cake design and
decoration is an artistic endeavor, intended to create
Id. at 66-67.
Id. at 68-70.
36 Excerpts of Record to Pet’r’s Opening Brief, 373-76, ¶ 2, 3, 56. Klein v. Or. Bureau of Labor and Indus., CA A159899 (Or.
Ct. App. Apr. 25, 2016), available at https://firstliberty.org/wpcontent/uploads/2017/02/SM16-04-25-Klein-Opening-brief-andER-FILE-STAMPED-COPY.pdf.
34
35

10
edible art with a message promoting and celebrating
the event for which the cake is made. 37 Conducting
her business, she gladly served anyone, regardless of
sexual or gender status. 38 But her religious faith
limited the messages she could commemorate via
cake designs. 39 And, on this basis, she refused to
create original cakes celebrating divorce, or
containing profanity. 40
In early 2013, a customer for whom Klein had
previously designed a wedding cake requested Sweet
Cakes design a cake, this time, for a same-sex
wedding. 41 Her husband (Aaron) declined because it
would require them to artistically promote same-sex
marriage through a wedding cake, in conflict with
their faith. 42 As a result, the bride-to-be filed a
complaint with the State of Oregon’s Bureau of
Labor and Industries (BOLI), alleging sexual
orientation discrimination. And, in finding the
Kleins guilty, BOLI imposed a fine of $135,000 and
prohibited them from mentioning their desire to run
their business according to their faith. 43 Klein was
forced to shut down the Sweet Cakes business. 44

Id. at 374-76, ¶¶ 3, 6.
Id. at 376-77, ¶ 7.
39 Id. at 373-76, ¶¶ 2, 4, 6.
40 Id. at 376, ¶ 6.
41 Id. at 368-69, ¶¶ 7-8.
42 Id. at 369, ¶ 8.
43 Id. at 46-47.
44 Id. at 377, ¶ 9.
37
38

11
Klein contested the judgment, but the Oregon
Court of Appeals ruled against her in 2017.45
Following the Oregon Supreme Court’s denial of
review, Klein petitioned to this Court, which
vacated and remanded to the Oregon Court of
Appeals to reconsider in light of the Masterpiece
Cakeshop ruling. 46 The parties have since submitted
supplemental briefing to the court of appeals
addressing the issue of religious hostility and await
ruling. However, foreshadowing the outcome, the
state court has already rejected Klein’s compelled
speech arguments. 47
The Court of Appeals conceived that Hurley
and the protection it affords against compelled
speech are not relevant, applying only to the
“peculiar” situation where anti-discrimination law
was applied to what it perceived as an abnormal
activity (there a parade), not to an undisputed public
accommodation like Klein’s business. 48
Like New Mexico, the Oregon Court of
Appeals distinguished Barnette and Wooley because
the message compelled was not that of the
government’s. 49 But, in recognizing that Klein’s
cake design was expressive and being compelled, the
Klein v. Oregon Bureau of Labor & Indus., 410 P.3d 1051,
1068 (Or. Ct. App. 2017).
46
Klein v. Oregon Bureau of Labor & Indus., 139 S. Ct. 2713
(2019).
47
Klein v. Oregon Bureau of Labor & Indus., 410 P.3d at 52543.
48
Id. at 1068
49
Id. at 1067-68.
45

12
court considered what standard of scrutiny applied. 50
It concluded that, although regulation of “pure
speech” (which it exemplified as “sculptures,”
“paintings”
and
other
media
“experienced
predominantly as expression”)
requires strict
scrutiny, regulation of Klein’s cakes did not,
believing the activity was part expressive and part
conduct, warranting the lesser scrutiny specified in
United States v. O'Brien, 391 U.S. 367 (1968). 51 The
court suggested that strict scrutiny might apply if
Klein had declined to author a particular message on
the cake requested. 52 As it was, applying the
O’Brien scrutiny, the court held the compulsion was
justified to prevent the dignitary harms to same-sex
couples identified by this Court in Obergefell. 53
Akin to New Mexico, in Oregon, if cake artists
and other creative professionals refuse to create and
sale artwork due to a disagreement with an implicit
celebratory message, they are unable to claim First
Amendment protection.
Washington: Barronelle Stutzman
Barronelle Stutzman is a floral design artist
and owner of Arlene’s Flowers, a flower shop in
Washington state. 54 Analogous to photography and
cake artistry, floral design is an art form in the
wedding industry, requiring skill and artistic
Id. at 1069-70.
Id. at 1069-71.
52
Id. at 1072.
53
Id. at 1073-74.
54
Pet’r’s App. to Pet. for Cert. at 376a.
50
51

13
judgment, as the florist selects flowers of a
particular type and color to generate the mood and
message of the event for which they are chosen. 55
Learning this skill from her mother at a young age,
Stutzman has honed floral artistry and personal
style in plying her trade over the years. 56 And with
wedding floral arrangements in particular, she uses
a significant degree of artistic talent and judgment,
contemplating an original arrangement of flowers
that celebrates a specific union in a unique way. 57
Stutzman is a Christian as well, whose
religious beliefs inform her that she must honor God
with every decision she makes, including how to best
operate her business. 58 Her religiously-based belief
that marriage is between one man and one woman
prohibits her from participating in same-sex
weddings, especially through her artistic floral
design talents. 59 Her faith also informs that she is
to love and respect her neighbor, and so mindful, she
has gladly employed and served anyone regardless of
race, religion, sex, or sexual orientation. 60
One such example of Stutzman’s service is
Respondent Rob Ingersoll, and her care for him for
nine years, with full knowledge that he is gay and in
a same-sex relationship with Respondent Curt

Id. at 377a-378a.
Id. at 376a-378a.
57
Id. a t 380a-385a.
58
Id. at 376a.
59
Id. at 387a.
60
Id. at 379a-380a, 386a.
55
56

14
Freed. 61 But when Ingersoll asked Stutzman to
create arrangements for his wedding, she could
participate in the event because of her faith and
candidly advised him of her concern (in lieu of
making up some other reason). 62 She remained
willing to provide custom arrangements to Ingersoll
or anyone else for other events, and to provide raw
materials, even if they were to be used for same-sex
weddings, but she could not – as a matter of
conscience – create floral art for the event herself. 63
Nevertheless, the Washington Supreme Court
mandates
Stutzman
create
custom
floral
arrangements for same-sex weddings or face dire
consequences. 64 Refusal to provide custom floral
arrangement celebrating a same-sex wedding is
deemed discrimination on the basis of sexual
The court opined that
orientation status. 65
Stutzman’s artistic custom floral arrangements did
not qualify as speech on the notion that the activity
is “not ‘speech’ in a literal sense [it] is thus properly
characterized as conduct” 66 and Stutzman’s
“conduct”
was
not
sufficiently
“inherently
67
expressive” to qualify as expression. Agreeing with
the rationale of Elane Photography, the court also
held Hurley protections did not apply because
Id. at 385a-386a.
Id. at 386a-389a
63
Id. at 389a-390a.
64
State v. Arlene's Flowers, Inc., 441 P.3d 1203, 1224, 1237
(2019).
65
Id. at 1221-22.
66
Id. at 1225. One wonders whether non-verbal abstract
paintings could qualify as speech under this rubric.
67
Id. at 1226.
61
62

15
Stutzman’s business is an ordinary public
accommodation. 68
Hence, the court held that
Washington’s compulsion of Stutzman’s custom
floral arrangements did not implicate any degree of
free speech scrutiny. 69
Like Oregon, Washington state presumes
business activity with expressive services does not
amount to speech entitled to protection. And like
New Mexico, the focus of the analysis was on the
context of a business, belittling the expressive and
artistic nature of the products and services.
In New Mexico, Oregon, and Washington
State, creative professionals are compelled to
produce art even though it promotes disagreeable
ideas. These states have all but decided that
compelled speech protections do not exist when
requiring for-profit businesses to comply with nondiscrimination or public accommodation laws.
B. The Eighth Circuit, Arizona, and
Kentucky (to Some Degree) Support Free
Speech
Protections
for
Business
Operations when Non-Discrimination or
Public
Accommodations
Laws
are
Invoked
Eighth Circuit: Carl Larsen and Angel Larsen
Carl and Angel Larsen are Christians who put
their faith and conviction about marriage at the
68
69

Id. at 1226-27.
Id. at 1228.

16
center of their lives. 70 Concerned by the current
cultural narrative about marriage, they feel
religiously compelled to advocate for a biblicallybased view of marriage through their video and film
production company, Telescope Media Group. 71
Through their films, the Larsens seek to honor Jesus
Christ by telling video stories extolling the values of
traditional marriage. 72
But, in applying state law, Minnesota officials
have publicly declared that creative professionals
like the Larsens who decline to promote same-sex
marriage will be punished. 73 To wit, if the Larsens
produce a film celebrating a traditional marriage,
they must make films celebrating same-sex
marriages, or face civil fines, treble damages,
punitive damages up to $25,000 per year, and up to
90 days in jail. 74 In fact, in making such films,
Minnesota commanded filmmakers to “depict sameand opposite-sex weddings in an equally ‘positive’
light.” 75
Fearing sanctions, the Larsens filed a lawsuit
in federal court to regain their free speech rights.
Subjecting the law to intermediate scrutiny, the
district court held that the restriction was justified
to prevent discrimination and the stigma associated
Verified Compl., ¶¶ 72-74, Telescope Media Group v. Lindsey,
No. 16-cv-04094 (D. Minn. filed December 6, 2016), ECF No. 1.
71 Id. at ¶¶ 1, 113-16, 122, 237-240.
72 Id. at ¶¶ 83, 87-88, 93, 122-25.
73 Id. at ¶¶ 60-65.
74 Id. at ¶¶ 12-14, 157, 161-63.
75
Telescope Media Grp. v. Lucero, 936 F.3d 740, 748-49 (8th
Cir. 2019).
70

17
with it, and therefore dismissed the Larsens free
speech claims. 76
However, by a 2-1 decision, the U.S. Court of
Appeals for the Eighth Circuit reversed. 77 The
appellate court held that the Larson’s creation of
wedding films is inherently speech, involving artistic
talent and editorial judgment, and that their
operation as a for-profit business makes it no less
so. 78 The court rejected Minnesota’s argument that
regulating Larsen’s expression was mere conduct,
explaining that “what matters” is that the ultimate
product, videos, are “medi[a] for the communication
of ideas.” 79 The court also rejected Minnesota’s
argument that the O’Brien standard scrutiny applied
based on the mixture of speech and non-speech
elements. 80
The Eighth Circuit further recognized
Minnesota’s application of the law as compelled
speech under Hurley and Tornillo, forcing the
Larsens to create films as “positive” about same-sex
marriage as opposite-sex marriage. 81 The court
therefore applied strict scrutiny, finding the law’s
application unconstitutional, commenting that as
important as anti-discrimination laws are, they
cannot effectively “‘declar[e] [another’s] speech itself
Telescope Media Grp. v. Lindsey, 271 F.Supp.3d 1090, 111516, 1128 (D. Minn. 2017).
77
Telescope Media Grp., 936 F.3d at 747.
78
Id. at 750-51.
79
Id. at 752 (citation omitted).
80
Id. at 756-57.
81
Id. at 752-54.
76

18
to be [a] public accommodation’ or grant ‘protected
individuals ... the right to participate in [another’s]
speech,’” as Minnesota was doing. 82
The Eighth Circuit, as reflected here with the
Larsens, centers on the expressive nature of the
product or service itself, unconcerned that such
speech is conveyed through the services of a forprofit business. Accordingly, creative professionals
in this circuit are assured that their artistic
endeavors are valued and strongly protected against
compelled speech, regardless of whether they
expressed in the conduct of commercial enterprise.
Arizona: Joanna Duka & Breanna Koski
Christians Joanna Duka and Breanna Koski
create and sell art together as part of a for-profit
business they call Brush & Nib Studio. 83 Using their
God-given talents in calligraphy and hand-painting,
they create custom artwork (in the form of
invitations, décor, and more) designed to celebrate
the particular wedding or other special event for
The process is
which they are tasked. 84
collaborative, involving Duka and Koski consulting
Id. at 754-56 (quoting Hurley, 515 U.S. at 572-73) (alteration
in Telescope Media Grp.).
83 Second Am. Verified Compl., ¶¶ 10-15, Brush & Nib Studio,
LC v. City of Phoenix, No. CV2016-052251 (Super. Ct. Ariz.
Filed
September
1,
2016),
available
at
https://adflegal.blob.core.windows.net/mainsitenew/docs/default-source/documents/legal-documents/brush-nibstudio-v.-city-of-phoenix/brush-nib-studio-v-city-of-phoenix--second-amended-verified-complaint.pdf?sfvrsn=921d31be_4.
84 Id. at ¶¶ 11, 16, 26.
82

19
with clients and each other, and exercising artistic
judgment to determine the colors, tone, and style
that best commemorate the event. 85
Their commercial efforts in creating these
products are informed by scripture in the bible. 86
Specifically, their religious beliefs define the
standards of goodness, truth, and beauty they
employ in their artwork. 87 And, their biblicallygrounded belief that marriage is the union between
one man and one woman directs the content and
motifs they use in creating wedding-related artwork,
like wedding invitations. 88 Though they gladly serve
any person, there are messages Duka and Koski are
unwilling to produce in their custom art, including
that which would promote same-sex weddings. 89
Duka’s and Koski’s convictions about
marriage placed them at odds with a Phoenix law
requiring them to promote a view of marriage
contrary to their religious beliefs. 90 Their refusal to
literally paint same-sex marriage in the same
positive light as opposite-sex marriage subjects them
to fines of up to $2,500 and up to six months in jail,
for every day they would be out of compliance with
the law. 91

Id. at ¶¶ 19-25, 32-44.
Id. at ¶¶ 59-60, 67-69.
87 Id. at ¶¶ 61-63.
88 Id. at ¶¶ 67, 128.
89
Id. at ¶¶ 67, 69-70, 76-78.
90 Id. at ¶¶ 99-100, 111.
91 Id. at ¶ 109.
85
86

20
Left with no other recourse, Duka and Koski
filed a lawsuit to enjoin the law, but the Arizona
trial court and the court of appeals both ruled
against them, holding that, despite the obviously
expressive nature of writing and painting words,
“their creation of design-to-order merchandise” was
mere conduct that could be compelled to prevent
stigma to same-sex couples. 92
In a 4-3 decision, the Arizona Supreme Court
reversed. 93 The court confirmed that Duka’s and
Koski’s custom wedding invitations, as well as the
process of creating them, constitute pure speech, and
are not conduct, though the custom works are sold
for-profit. 94 The court rejected the argument that
Duka’s and Koski’s custom artwork was not their
speech on account of the public’s inability to discern
an articulable message, observing that an articulable
message is not necessary for pure speech, especially
artwork. 95 The court likewise rejected the argument
that Duka’s and Koski’s decision not to create
artwork promoting same-sex weddings was
discriminatory conduct based on its impact on samesex couples. 96
Relying on Hurley, the Arizona Supreme
Court held that the application of Phoenix’s law to
Brush & Nib Studio, LC v. City of Phoenix, 418 P.3d 426, 439
(Ariz. Ct. App. 2018).
93
Brush & Nib Studio, LC, No. CV-18-0176-PR, 2019 WL
4400328, at *33 (Ariz. Sept. 16, 2019).
94
Id. at *13-*19.
95
Id. at *12-*13, *18.
96
Id. at *17.
92

21
compel speech necessarily turned on the content of
speech, because it “compels them to write
celebratory messages with which they disagree, such
as ‘come celebrate the wedding of Jim and Jim.’” 97
The court held the compulsion of speech could not
satisfy this standard, considering that a regulation
of speech is not narrowly tailored to an ordinance
designed to regulate conduct. 98 The court rejected
the argument that Hurley did not apply to for-profit
public accommodations, noting the core principle
was autonomy of speech, not speaker identity, as
shown in this Court’s decisions in Tornillo and Pac.
Gas & Elec. Co.. 99
Addressing how other courts have ruled in
similar cases, the court explicitly rejected the
rationale of Elane Photography. 100 The court also
distinguished Washington’s reasoning in this case as
well as that espoused in the Klein case on the basis
that they “arguably implicated the expressive
conduct doctrine” because they involved cakes and
floral arrangements rather than words and
paintings. 101
Like the Eighth Circuit, Arizona rejected the
notion that the for-profit sale of products and
services necessarily renders them “conduct” or
anything less than pure speech, subject to full
protection against compulsion. This led Arizona to
Id. at 20.
Id. at *21-*22.
99
Id. at *21.
100
Id. at 22-23.
101
Id. at *23.
97
98

22
recognize that the use of non-discrimination laws to
compel the creation of pure speech compels the
content of speech itself. Even so, it is uncertain as to
what degree non-verbal artistic endeavors (like
Stutzman’s) are protected from compulsion in
Arizona.
Kentucky: Blaine Adamson
Blaine Adamson is a Christian too, as well as
the managing owner of Hands-On Originals, a
printing company in Lexington, Kentucky. 102
Adamson’s work involves graphic design of words
and images printed on shirts and other promotional
materials, employing a certain degree of artistic
talent to promote particular messages. 103 Adamson’s
faith drives him to conduct his life – including his
business – in a way that honors God, making him
accountable to God for the messages he prints. 104 He
is willing to serve any customer, but his faith does
not permit him to print certain messages. 105
In March of 2012, Adamson was asked to print
shirts promoting the annual pride festival hosted by
the Gay and Lesbian Services Organization
Affidavit of Blaine Adamson, ¶¶ 2-3, 15, Lexington-Fayette
Urban County Human Rights Commission v. Hands On
Originals, Inc., HRC No. 03-12-3135, (Apr. 9, 2014), available
at
https://adflegal.blob.core.windows.net/web-contentdev/docs/default-source/documents/case-documents/baker-v.hands-on-originals/affidavit-in-support-of-summaryjudgment.pdf?sfvrsn=6.
103 Id. at ¶¶ 6-11.
104 Id. at ¶¶ 15-18, 26-27.
105 Id. at ¶¶ 30, 33, 49-50.
102

23
(“GLSO”). 106 Adamson declined the job because he
could not promote the message specified on the shirt
and the message of the event generally. 107 Adamson
offered to refer GLSO to another printer but they
were not interested and soon filed a complaint of
sexual orientation discrimination against Adamson
with the county Human Rights Commission. 108
Finding Adamson guilty, the Commission ordered
him to print the message on shirts for GLSO against
his will. 109
Adamson appealed this decision, and
Kentucky courts have so far ruled in Adamson’s
favor, with the court of appeals being the most
recent to rule on the issue. 110
The court of appeals’ decision, however, was
badly fractured, with each of the three judges filing a
separate opinion, leaving some ambiguity as to
where exactly the law lies in Kentucky. Though
Chief Judge Kramer occasionally mentioned certain
principles
that
echoed
compelled
speech
Id. at ¶¶ 34, 38, 43-44.
Id. at ¶¶ 43-44.
108 Id. at ¶ 47.
109 Lexington-Fayette Urban County Human Rights Commission
v. Hands On Originals, Inc., HRC No. 03-12-3135, at 16 (Oct. 6,
2014), available at https://adflegal.blob.core.windows.net/webcontent-dev/docs/default-source/documents/casedocuments/baker-v.-hands-on-originals/hands-on-originals-vlexington-fayette-urban-county-human-rights-commission--hearing-examiner-s-recommended-ruling.pdf?sfvrsn=14.
110
Lexington Fayette Urban Cty. Human Rights Comm’n v.
Hands on Originals, Inc., No. 2015-CA-000745-MR, 2017 WL
2211381, at *6-7 (Ky. Ct. App. May 12, 2017).
106
107

24
jurisprudence, his opinion relied primarily on
statutory interpretation, reasoning that Adamson
did not violate the law on the premise that
discrimination against a particular message is not
discrimination against any person, under the
ordinance. 111 As such, his opinion did not make
clear whether an application would violate free
speech. 112 Judge Lambert, by contrast, held that
application of the law to Adamson’s decision would
violate the Free Exercise clause and federal and
state religious freedom restoration acts. 113 And
Judge Taylor, in dissent, rejected Adamson’s free
speech and free exercise claims, arguing that
refusing to print shirts that promote an LGBTQ+
pride festival is necessarily discrimination against
LGBTQ+ persons. 114
Following the appellate decision, the
Kentucky Supreme Court accepted review of the
case, and a decision is pending. So, although
Kentucky’s current rationale, as reflected by the
intermediary appellate court, is harmonious with the
principles confirmed by the Eighth Circuit and
Arizona, it is unclear how Kentucky courts will
ultimately rule on the free speech argument, and to
what degree speech by creative professionals will be
protected.
This case, like all others dealing with this hot
topic, demonstrate that the Court’s involvement is
Id. at *5-*7.
Id.
113
Id. at *8 (Lambert, J., concurring).
114
Id. at *9-*10.
111
112

25
necessary to resolve the continual conflict
implicating crucial First Amendment rights. 115
II.

This Case Presents an Ideal Vehicle for
this Court to Resolve the Ongoing Conflict

In light of diametrically opposed opinions and
resultant uncertainty as to whether and to what
degree the First Amendment protects expressive
works from compulsion under non-discrimination
and public accommodation laws, Barronelle
Stutzman’s case presents an ideal vehicle for this
115
Aside from the conflicts demonstrated in published
decisions, the lack of clarity on the issues causes lingering
problems for creative professionals. Indeed, not even Jack
Phillips – despite the Supreme Court victory he obtained in
Masterpiece Cakeshop – can avoid difficulty. His ordeal is far
from over. On June 26, 2017, the day this Court granted
certiorari in Phillips’ prior case, transgender attorney Autumn
Scardina called Phillips and Masterpiece Cakeshop and asked
them to make a transition celebration cake, specifically
required to be blue on the outside and pink on the inside to
mark Scardina’s male to female gender transition. Compl., ¶¶
13-19, Autumn Scardina v. Masterpiece Cakeshop, Inc., No.
2019CV32214 (Dist. Ct. Colo. Filed June 5, 2019), available at
http://www.adfmedia.org/files/MasterpieceScardinaComplaint.p
df. Because Phillips declined to make this particular cake, once
again, due to his religious beliefs, Scardina filed charges with
the Colorado Civil Rights Commission, which brought new
charges against Phillips about 3 weeks after this Court ruled in
Phillips’ favor. Id. at ¶¶ 20, 23-25. The Commission eventually
agreed to drop the charges. Id. at 28-29. But, Scardina then
filed suit against Phillips, alleging that Phillips’ refusal to
custom-design a cake that is specially designed to send a
message celebratory of a gender transition constitutes illegal
discrimination based on transgender status. Id. at 1-4. This
case is still ongoing.

26
Court to step in and clean up the mess, providing
sorely-needed guidance on a multitude of issues.
Specifically, this petition, should the Court
accept it, would give opportunity to clarify whether,
and under what circumstances, a creative
professional’s
for-profit
creation
of
custom
commissioned works constitutes protected speech.
In making this determination, the courts have
employed differing criteria with various conclusions.
Courts have considered whether the business
activity constitutes “pure speech” (Eighth Circuit,
Arizona, and presumably Kentucky), expressive
conduct (Oregon), or pure conduct (New Mexico and
Washington). In making this determination, they
also have varied opinions on the proper focus,
whether it be the operation of the business as a forprofit entity (New Mexico, Oregon, and Washington)
or the nature of the product or service (Eighth
Circuit, Arizona, and Kentucky).
The courts have additionally considered, and
come to sundry conclusions about, whether the
activity must convey an articulable message, and
whose message is really at issue (the artist’s or the
customer’s), and whether there must be a showing
that the public would likely attribute the message to
the artist to receive protection. These clashing
approaches and analyses have led to conflicting and
contrary results on how to determine if artistic
expression in the marketplace is protected speech or
unprotected conduct.

27
This brings us to Barronelle Stutzman, whose
petition supplies a unique chance to resolve these
issues in one fell swoop. Letting the decision of the
Washington Supreme Court stand without comment
will surely doom courts who will continue to
hopelessly flounder over which art is expressive
enough to warrant protection in the for-profit
context.
Also, as an additional benefit, this case offers
the Court a situation free from the possibility of
invidious discrimination against same-sex couples as
such. Stutzman gladly served Ingersoll for nine
years knowing he was in a same-sex relationship,
and remains willing to do so, eliminating any
suggestion that Stutzman’s claims are a
smokescreen for animus against status. 116 Stutzman
refuses only participation in a specific event (samesex weddings) regardless of any customer’s sexual
status.
And, finally, this case is suitable for merits
decision because the Washington Supreme Court
found no overt animosity against religion on the part
of the adjudicatory bodies reviewing the case,
presenting a cleaner avenue for answering the free
speech question than the Masterpiece Cakeshop case.
CONCLUSION
The many cases discussed herein illustrate
the jurisprudential chaos taking place in the void of
116

Pet’r’s App. to Pet. for Cert. at 386a-390a.

28
a decisive and binding ruling on the propriety of free
speech defenses with claims made under nondiscrimination and public accommodation laws.
Courts are uncertain on how to rule and, as a result,
creative professionals are uncertain on how to act.
Clarity from this Court is required. In Masterpiece
Cakeshop, this Court reserved these issues for
another day and that day has come.
For these reasons, and those specified in
Petitioners’ brief, this Court should grant certiorari
to take up this case and resolve these important and
timely issues.
Respectfully Submitted,
NATHAN W. KELLUM
Counsel of Record
CENTER FOR RELIGIOUS
EXPRESSION
699 Oakleaf Office Lane
Suite 107
Memphis, TN 38117
(901) 684-5485
nkellum@crelaw.org
Counsel for Amicus
Curiae

